SIGAR                                   Special Inspector General for
                                         Afghanistan Reconstruction




                                                  SIGAR 14-30 Audit Report



     Afghan National Security Forces: Despite Reported
     Successes, Concerns Remain about Literacy Program
     Results, Contract Oversight, Transition, and Sustainment




                                                            JANUARY
                                                           2014

SIGAR 14-30-AR/ANSF Literacy Training
                                                 JANUARY 2014




SIGAR
Special Inspector General for
                                                 Afghan National Security Forces: Despite Reported Successes,
                                                 Concerns Remain about Literacy Training Program Results, Contract
                                                 Oversight, Transition, and Sustainment

                                                 SIGAR 14-30 Audit Report
Afghanistan Reconstruction                       WHAT SIGAR FOUND
                                                 The North Atlantic Treaty Organization Training Mission-
WHAT SIGAR REVIEWED                              Afghanistan/Combined Security Transition Command-Afghanistan (NTM-
The North Atlantic Treaty Organization           A/CSTC-A), under the command of the International Security Assistance
Training Mission-Afghanistan/Combined            Force, reported that its literacy training program has been generally
Security Transition Command-                     successful in providing basic, functional literacy to Afghan National Security
Afghanistan (NTM-A/CSTC-A) considers             Forces (ANSF) personnel. As of October 2013, the command reported that
literacy to be critical to developing            224,826 ANSF personnel had passed basic Level 1, with 73,700 passing
capable, professional, and sustainable           Level 3 since the program’s inception in November 2009. The command said
Afghan National Security Forces (ANSF).          that the literacy program will meet its goal of 100 percent of ANSF personnel
In 2009, the command established a               proficient at Level 1 and 50 percent proficient at Level 3 by the end of 2014.
goal of having 100 percent of ANSF               However, these goals were based on the ANSF’s authorized end strength of
personnel achieve Level 1 literacy (basic        148,000 personnel that was established in 2009, rather than the current
literacy equivalent to first-grade               authorized end strength of 352,000. Several NTM-A/CSTC-A officials told us
proficiency) and at least 50 percent of          they do not know how the goal for the literacy program was developed, but
the ANSF attain Level 3 (functional              that attaining it based on the current authorized ANSF end strength may be
literacy equivalent to third-grade               “unrealistic” and “unattainable.”
proficiency) by December 31, 2014.               The command’s ability to measure the effectiveness of its literacy training
In an effort to achieve its program goals,       program and determine the extent to which overall literacy of the ANSF has
the command implemented a literacy               improved is limited. None of the three literacy training contracts requires
training program delivered through three         independent verification of testing for proficiency or identifies recruits in a
U.S.-funded contracts with OT Training           way that permits accurate tracking as the recruits move on to army and
Solutions, Insight Group, and the Higher         police units. For example, the reporting does not link the names and military
Education Institute of Karwan. Issued in         identification numbers of students listed on class rosters with course
August 2010, these contracts have a              graduation rosters and their assigned units’ personnel lists. The contracts
combined value of $200 million for up to         also do not adequately define what constitutes a literacy class. The lack of
5 years. NTM-A/CSTC-A plans to transfer          defined requirements for classes and length of instruction resulted in one
the program to the Afghan Ministries of          contractor billing for classes held for as little as 2 hours a month and for
Defense and Interior by December 31,             multiple classes at one site that could have been combined into one class.
2014.                                            External factors also limit NTM-A/CSTC-A‘s ability to determine progress. For
                                                 example, security pressures and the need to send recruits to the field more
The objectives of this audit were to
assess the extent to which (1) NTM-
A/CSTC-A’s literacy training is meeting
goals for improving literacy within the
ANSF, (2) NTM-A/CSTC-A has provided                                                                              Literacy
effective contract oversight, and (3) NTM-                                                                       instruction at
A/CSTC-A has taken steps to transfer and                                                                         Darulaman
sustain the training program.                                                                                    Literacy Center
                                                                                                                 at Camp Julian


                                                                                                                 Source: SIGAR,
                                                                                                                 March 24, 2013.




       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
quickly has caused some army recruits to not complete the full 64 hours
of instruction needed to achieve Level 1 literacy. From February to July
2013, the Ministry of Defense removed literacy training from the basic
training program. Some ANP recruits also do not receive the required
hours of literacy instruction, and according to officials, 45 percent of
police personnel recruited between July 2012 and February 2013 were
sent directly to field checkpoints without receiving any literacy training.
Lastly, attrition, which NTM-A/CSTC-A estimates at 30 to 50 percent
annually, makes it difficult for the command to measure program
success. NTM-A/CSTC-A is working to address these issues by, among
other things, developing class requirements and implementing a
standard procedure for verifying the need for and approving new classes.
SIGAR also found that NTM-A/CSTCA initially did not perform effective
oversight of the three ANSF literacy training contracts. Specifically, the
command allowed the training program to grow far beyond its oversight
capacity and was unable to monitor the contractors’ performance at a
majority of the training sites in accordance with the contract acquisition
plan and quality assurance surveillance plan. For example, in December
2010, NTM-A/CSTC-A contracted with EUREKA Research to conduct site                Basic Dari literacy training material at Kabul
visits at 960 training locations to evaluate classes being conducted. By          Military Training Center
the fall of 2012, the number of training locations totaled approximately          Source: SIGAR, March 27, 2013.
3,200 with roughly 6,000 classes across Afghanistan.
NTM-A/CSTC-A has since taken steps to improve oversight. Namely, it
reduced the number of ongoing classes to roughly 2,200 conducted in
                                                                                   WHAT SIGAR RECOMMENDS
589 locations as of August 2013. In addition, it awarded a new quality             SIGAR is making six recommendations to the
assurance contract in December 2013. Despite these improvements,                   Commander of the International Security
NTM-A/CSTC-A’s ability to oversee OT Training Solutions, Insight Group,            Assistance Force Joint Command, in
the Higher Education Institute of Karwan, as well as the new quality               coordination with other relevant entities: two
assurance contractor, may be hampered as the drawdown of coalition                 to improve the usefulness of literacy training
forces continues because there will be fewer personnel available to                program reporting and measures of progress
conduct oversight.                                                                 toward achieving overall program goals; three
                                                                                   to strengthen the oversight of the three
NTM-A/CSTC-A’s strategy and plan for the literacy training program called
                                                                                   ongoing literacy training contracts and the
for the command to transfer the program to the Afghan government by
                                                                                   new quality assurance contract; and one to
the end of 2014, with all classes in the field transferred by July 2013.
                                                                                   increase the likelihood of a successful
However, NTM-A/CSTC-A had difficulty obtaining agreement on the plan
                                                                                   transfer and sustainment of the literacy
from the Ministries of Defense and Interior. In May 2013, the ministries
                                                                                   training program by developing and
agreed to NTM-A/CSTC-A’s updated plans for the literacy training
                                                                                   implementing a formal, coordinated transition
program, but have been slow to fulfill their stated commitments under
                                                                                   and sustainment strategy.
the plans. In particular, they have been reluctant to increase the length
of basic recruit training to allow for literacy training through Level 3 for       In commenting on a draft of this report, NTM-
illiterate recruits.                                                               A, on behalf of the International Security
                                                                                   Assistance Force Joint Command, concurred
Despite the slow transfer of responsibilities to the Afghan government,
                                                                                   with three recommendations, partially
other international donors have continued to support the ANSF literacy
                                                                                   concurred with two recommendations, and
training effort. However, NTM-A/CSTC-A has not yet developed a new
                                                                                   did not concur with one recommendation. The
transition and sustainment strategy that defines these stakeholders’
                                                                                   U.S. Central Command Joint Theater Support
responsibilities and commitments, program goals, milestones, metrics,
                                                                                   Contracting Command also provided written
and timelines. Without such a strategy in place early in the transition
                                                                                   comments to the draft report in which it
process, the potential for delays and duplication of efforts exists,
                                                                                   concurred with the five recommendations
particularly if stakeholders do not implement commitments as planned or
                                                                                   directed to it. These comments, along with
if they initiate separate efforts. The potential delays and duplication of
                                                                                   our responses, are reproduced in appendices
efforts could result in wasted funds, limited effectiveness of the training
                                                                                   III and IV.
program, and negatively affect its transfer to the Afghan government.


        For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 28, 2014

Department of Defense Offices and Commands:

This report discusses the results of SIGAR’s audit of three Department of Defense contracts to
provide literacy training to Afghan National Security Forces personnel throughout Afghanistan.
It includes six recommendations for the Commander of the International Security Assistance
Force Joint Command. These recommendations are intended to improve the usefulness of
literacy training program reporting and measures of progress toward achieving overall program
goals, strengthen oversight of the three ongoing literacy training contracts, and increase the
likelihood of a successful transfer and sustainment of the literacy training program.
The North Atlantic Treaty Organization Training Mission-Afghanistan (NTM-A) provided
comments on the draft of this report on behalf of the International Security Assistance Force
Joint Command. In its response, NTM-A concurred with three recommendations, partially
concurred with two recommendations, and did not concur with one recommendation. The U.S.
Central Command Joint Theater Support Contracting Command also provided written
comments on the draft report. The command concurred with the five recommendations
addressed to it. These comments, along with our responses, are reproduced in appendices III
and IV.
SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
Addressees

The Honorable Charles T. Hagel
Secretary of Defense

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force
 Joint Command

Major-General Dean J. Milner
Deputy Commanding General, Operations
 NATO Training Mission-Afghanistan

Major General Kevin R. Wendel
Deputy Commander, Combined Security Transition
 Command-Afghanistan/Ministerial Advisory Groups
                                             TABLE OF CONTENTS

Background ...................................................................................................................................................................... 5 

More Than 224,000 ANSF Personnel Have Received Basic Literacy Training, but Literacy Program Lacks Key
Elements Critical to Measuring Program Success ....................................................................................................... 7 

Oversight of Contractor Performance Is Improving, but Future Oversight Capability May Be at Risk................... 11 
NTM-A/CSTC-A Has Taken Steps to Transfer and Sustain the Literacy Training Program, but Lacks a Formal
Strategy for Implementing Agreements ...................................................................................................................... 13 

Conclusion ..................................................................................................................................................................... 16 
Recommendations ........................................................................................................................................................ 17 
AGENCY COMMENTS .................................................................................................................................................... 18 

Appendix I - Scope and Methodology .......................................................................................................................... 20 
Appendix II - Commitments to the Transfer and Sustainment of the ANSF Literacy Training Program ................ 22 
Appendix III - Comments from NATO Training Mission-Afghanistan ......................................................................... 24 
Appendix IV - Comments from U.S. Central Command Joint Theater Support Contracting Command ................. 28 
Appendix V - Acknowledgments ................................................................................................................................... 30 

TABLES

Table 1 - Training Provided under NTM-A/CSTC-A’s ANSF Literacy Program ............................................................ 5 
Table 2 - Stakeholder Commitments to ANSF in Literacy Training Transfer and Sustainment ............................. 22 

FIGURES

Figure 1 - Breakdown of Literacy Training Contracts by Regional Command and Contractor ................................. 6 
Figure 2 - Current and Future Plans for Providing Literacy Training for the ANA and ANP .................................... 14 

Figure 3 - Projected Literacy Training Program Transition Timeline ......................................................................... 15 




SIGAR 14-30-AR/ANSF Literacy Training                                                                                                                                    Page ii
ABBREVIATIONS

            ANA                         Afghan National Army
            ANP                         Afghan National Police
            ANSF                        Afghan National Security Forces

            CSTC-A                      Combined Security Transition Command-Afghanistan
            FAR                         Federal Acquisition Regulation
            GIZ                         Deutsche Gesellschaft fur International Zusammenarbeit
            GSCC                        General Support Contracting Command
            HEIK                        Higher Education Institute of Karwan
            MOD                         Ministry of Defense

            MOI                         Ministry of Interior
            NTM-A                       North Atlantic Treaty Organization Training Mission-Afghanistan
            OTTS                        OT Training Solutions




SIGAR 14-30-AR/ANSF Literacy Training                                                                     Page iii
Devastated by decades of conflict and neglect, Afghanistan suffers from low levels of literacy among the
general population and even more so among recruits in the Afghan National Security Forces (ANSF), which
includes the Afghan National Army (ANA) and Afghan National Police (ANP).1 The Afghan Ministry of Education
estimates that only about one-third of the Afghan population can read or write, while approximately 13 percent
of ANSF recruits possess these abilities. The North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A),2 under the command of
the International Security Assistance Force, considers literacy critical to developing a capable, professional,
and sustainable ANSF. In NTM-A/CSTC-A’s view, literate forces are easier to train, more capable and effective,
and better able to understand human rights and the rule of law. Further, literate soldiers and police can
account for equipment and weapons by completing paperwork and reading serial numbers. They can also
mitigate corrupt practices by tracking their own pay.
In 2009, NTM-A/CSTC-A established a goal of having 100 percent of ANSF personnel attain Level 1 literacy
(basic literacy equivalent to first-grade proficiency) and at least 50 percent of personnel attain Level 3 literacy
(functional literacy equivalent to third-grade proficiency) by December 31, 2014.3 To achieve this goal, NTM-
A/CSTC-A implemented a literacy training program for the ANSF valued at $200 million for up to 5 years.
Issued in August 2010, the U.S.-funded contracts were with OT Training Solutions (OTTS), Insight Group, and
the Higher Education Institute of Karwan (HEIK). NTM-A/CSTC-A plans to transfer the literacy training program
to the Afghan government at the end of 2014.
The objectives of this audit were to assess the extent to which
     1. NTM-A/CSTC-A’s literacy training is meeting goals for improving literacy within the ANSF,
     2. NTM-A/CSTC has provided effective contract oversight, and
     3. NTM-A/CSTC-A has taken steps to transfer and sustain the training program.
To accomplish our objectives, we reviewed the three base literacy contracts and the associated program
oversight contract for quality assurance, as well as modifications and task orders. We analyzed monthly
contracting officer reports, coalition unit site inspection reports, and quality assurance reports. In addition, we
reviewed acquisition strategies and other documents developed during the planning and pre-award phases of
the contracts, along with relevant clauses in the Federal Acquisition Regulation (FAR) and U.S. Army contracting
regulation. We examined various contractor documents, including quality control plans, literacy instructor
qualifications, and training plans. We conducted site visits to six ANSF training locations, where we observed
ANSF training classes and analyzed documentation, such as attendance rosters, for specific classes. We
interviewed officials from NTM-A/CSTC-A; two Regional Commands and one Regional Support Command; the
U.S. Central Command Joint Theater Support Contracting Command’s General Support Contracting Center in
Kabul; the three contractors; the Afghan Ministries of Interior, Defense, and Education; the ANA and ANP; and
nongovernmental organizations. We conducted work in Washington, D.C., and Kabul, Balkh, and Helmand
provinces in Afghanistan from November 2012 to January 2014, in accordance with generally accepted
government auditing standards. A complete discussion of our scope and methodology is in appendix I.




1The United Nations Educational, Scientific, and Cultural Organization defines functional literacy as the ability to identify,
understand, interpret, create, communicate, compute, and use printed and written materials associated with varying
contexts.
2 In October 2013, the International Security Assistance Force realigned NTM-A/CSTC-A. This realignment split the two
components of the command and shifted their responsibilities, with CSTC-A assuming responsibility for the ANSF literacy
training program. Due to the timing of this change, which occurred after we finished our field work, we refer to NTM-
A/CSTC-A throughout this report.
3For the purposes of this report, literacy refers to reading and writing in Dari or Pashto, two of the main native languages
used in Afghanistan. Level 1 literacy is basic literacy equivalent to first grade proficiency, and Level 3 is functional literacy
equivalent to third grade proficiency.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                      Page 4
BACKGROUND

According to the Under Secretary of Defense for Policy, NTM-A/CSTC-A’s literacy training program for the ANSF
is the largest literacy program in Afghanistan. In addition to providing soldiers and police with the skills needed
to account for their equipment and pay, Afghan officials have reported that literacy training has positive
impacts on recruiting and retention and produces indirect benefits in such areas as local employment.
In coordination with the Ministry of Education, NTM-A/CSTC-A determined that the literacy training could be
delivered in 312 total hours of instruction through three different levels. Table 1 shows the hours of
instruction, class location, and type of instruction provided for each level of literacy training provided under
NTM-A/CSTC-A’s program.

Table 1 - Training Provided under NTM-A/CSTC-A’s ANSF Literacy Program
     Literacy Level       Number of Hours          Class Location                       Instruction Provided

                                                                         • Read, write, pronounce, and identify letters
Level 1                           64            Training centersa
                                                                         • Read and write short words
                                                                         • Read and write one’s own name
                                                                         • Count up to 1,000
                                                                         • Identify, write, and order numbers up to 1,000
                                                                         • Add and subtract triple-digit whole numbers
                                                                         • Read, write, and explain descriptive texts
Level 2                          128            Fielded unitsb
                                                                         • Spell commonly used words
                                                                         • Carry out double-digit by single-digit multiplication
                                                                            and division
                                                                         • Identify units of measurement
                                                                         • Read, write, and comprehend short paragraphs
Level 3                          120            Fielded unitsb
                                                                         • Use correct punctuation to aid meaning and
                                                                           understanding
                                                                         • Add and subtract using six-digits numbers
                                                                         • Multiply and divide with three-digit numbers.
a NTM-A/CSTC-A literacy program provides Level 1 literacy instruction during the ANA’s Basic Warrior Training program and

the ANP’s Basic Initial Police Training Course for new recruits.
b   NTM-A/CSTC-A also provides Level 2 and 3 literacy instruction at the Darulaman Literacy Center in Kabul.
Source: NTM-A/CSTC-A.

On behalf of NTM-A/CSTC-A, in August 2010, the U.S. Central Command Joint Theater Support Contracting
Command’s General Support Contracting Center (GSCC)4 issued firm fixed-price, indefinite delivery/indefinite
quantity contracts to three companies: OTTS, a U.S.-based company; Insight Group, an Afghan company; and
HEIK, also an Afghan company, to execute the literacy training program.5 The combined value of all three


4The Kabul Regional Contracting Center initially awarded the three contracts. GSCC assumed responsibility for contract
administration in September 2012.
5 The contract numbers for OTTS, Insight Group, and HEIK are W91B4M-10-D-4011, W91B4M-10-D-4009, and W91B4M-
10-D-4010, respectively. These contracts replaced two prior literacy training contracts. In June 2007, Raytheon Technical
Services Company LLC received an indefinite delivery/indefinite quantity contract worth a maximum of $11.2 billion to
provide worldwide operations maintenance sustainment and instructional support of training systems used by the U.S.
military, multi-national coalition forces, and foreign military sales. The contract included support to NTM-A/CSTC-A for
training the ANA in subjects such as literacy, driving, and weapons. In September 2008, Cetena Group received a firm-fixed-
price definitive contract with a total cost of $5.4 million for ANP literacy training.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                    Page 5
contracts is $200 million for up to 5 years.6 The terms of each contract allowed GSCC to exercise a base year
and four 1-year options. As of August 2013, GSCC had exercised the base year and three 1-year options, made
39 modifications to the base contracts, and issued 227 task orders on the three contracts.7
GSCC assigned geographical areas to OTTS, Insight Group, and HEIK that reflected the International Security
Assistance Force’s regional command structure. OTTS conducted training in the east, Insight Group conducted
training in the north and west, and HEIK conducted training in the south and southwest regions of
Afghanistan.8 Figure 1 illustrates this geographic breakdown. According to the acquisition plan for the
contracts, the contractors would be required to provide literacy training (Level 1, 2, and 3) for approximately
60,000 ANSF personnel each year across Afghanistan.9

Figure 1 - Breakdown of Literacy Training Contracts by Regional Command and Contractor




Note: RC = Regional Command.
Source: NTM-A/CSTC-A.


6According to NTM-A/CSTC-A officials, beginning October 1, 2013, the literacy training contracts will be funded by the
North Atlantic Treaty Organization’s ANA Trust Fund.
7Generally used on contracts that do not specify a firm quantity, task orders are documents used by the government to
authorize the contractors’ performance of acquired services during the period of the contract.
8 The Regional Commands coordinate all civil-military activities conducted by the military elements of the provincial
reconstruction teams in their area of responsibility. There are currently six Regional Commands: North, West, East, South,
Southwest, and Capital.
9The literacy program acquisition plan lays out the strategy to be used and the coordination required to obtain timely, cost-
effective literacy training for the ANSF.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                 Page 6
MORE THAN 224,000 ANSF PERSONNEL HAVE RECEIVED BASIC LITERACY
TRAINING, BUT LITERACY PROGRAM LACKS KEY ELEMENTS CRITICAL TO
MEASURING PROGRAM SUCCESS

In October 2013, senior NTM-A/CSTC-A officials told us that the literacy training program has been successful
in providing basic and functional literacy to ANSF personnel. NTM-A/CSTC-A officials based their remarks on
two points. First, NTM-A/CSTC-A reports that fewer than 13,000 ANSF were at Level 1 literacy in October 2009.
However, as of October 2013, the command reported that 224,826 ANSF personnel had passed Level 1
training, 93,880 had passed Level 2, and 73,700 had passed Level 3 since the program’s inception in
November 2009.10 Second, if measured against the 148,000 personnel end strength in place when the
literacy program started, then NTM-A/CSTC-A exceeded its goal of having 100 percent of ANSF personnel
passing Level 1 and almost met its goal of having 50 percent of ANSF personnel passing Level 3 training.
However, if compared to the current end strength of 352,000 ANSF personnel, then NMT-A/CSTC-A falls short
of meeting its goal for the literacy program, with about 64 percent of personnel passing Level 1 training and
about 21 percent of personnel passing Level 3 training.11
During the course of our audit, several NTM-A/CSTC-A officials told us they did not know how the goal—having
100 percent of ANSF personnel passed Level 1 training and 50 percent of ANSF personnel passing Level 3
training—was developed. They added that, if based on the current authorized ANSF end strength of 352,000
personnel, the goal may be “unrealistic” and “unattainable.”
The command’s reliance on reported numbers of recruits that have passed literacy training as the key measure
of program success also obscures the fact that the program appears to have had limited impact on the actual
literacy levels within the ANSF. Some command officials responsible for the literacy training program roughly
estimated that over half of the force was still illiterate as of February 2013. According to NTM-A/CSTC-A
officials, this low level of literacy is likely to persist through the end of the decade.


Literacy Training Contracts Lack Key Elements to Measure Training Outcomes, and
External Factors Limit NTM-A/CSTC-A’s Ability to Determine Program Success
NTM-A/CSTC-A omitted four key requirements from the literacy training contracts, negatively impacting its
ability to effectively manage and oversee the literacy program. Specifically, the contracts do not require NTM-
A/CSTC-A to independently verify students’ proficiency at the three literacy levels, nor do the contracts require
the contractors to track literacy class graduates in a manner that would allow NTM-A/CSTC-A to ascertain the
impact of its literacy training. In addition, the contracts lack measurable performance standards and clear
requirements for class sizes and length of training. These challenges, together with security concerns, poor
attendance, and attrition also make it difficult for NTM-A/CSTC-A to determine program success.

Contracts Do Not Require Independent Verification of Training Results
Even though NTM-A/CSTC-A reported that 224,826 ANSF personnel passed Level 1 literacy training, and
73,700 ANSF personnel passed Level 3 training, the command cannot ensure the accuracy of those numbers.


10 The Department of Defense reported that over 90 percent of ANSF recruits who complete the literacy classes pass tests

administered by the contractors to determine proficiency.
11 According to Department of Defense reports, the size of the ANSF increased from roughly 250,000 personnel in 2010,

when the three literacy training contract were awarded, to about 350,000 personnel as of June 2013. NTM-A/CSTC-A
reported 346,638 personnel assigned as of August 2013. At the May 2012 Chicago Summit, the United States, its North
Atlantic Treaty Organization allies, other coalition partners, and the Afghan government anticipated a carefully planned
drawdown, based on security conditions, to an ANSF goal of 228,500 personnel in 2017, from its currently approved level
of 352,000. We are currently conducting an audit examining the reliability of ANSF personnel data and plan to issue a final
report in 2014.


SIGAR 14-30-AR/ANSF Literacy Training                                                                               Page 7
This is because the three literacy training contracts do not provide a mechanism for NTM-A/CSTC-A to
independently determine students’ proficiency at Levels 1 through 3. Currently, OTTS, Insight Group, and HEIK
administer proficiency tests once students complete the required hours of Level 1, 2, or 3 training. Students
who pass these tests are deemed proficient at the level tested. However, NTM-A/CSTC-A does not
independently assess students’ language proficiency or evaluate the effectiveness of the contractors’
instruction. According to officials with EUREKA Research—an Afghan company NTM-A/CSTC-A contracted with
in late 2010 to provide assistance with quality assurance—neither evaluating contractor performance nor
assessing student outcomes was included in its contracted quality assurance activities.

Contractor Reporting Does Not Enable NTM-A/CSTC-A to Track ANSF Literacy Levels
As part of their contractual requirements, OTTS, Insight Group, and HEIK provide progress reports containing a
significant amount of aggregate ANA and ANP literacy class data.12 However, the three contractors are not
required to report on the number of literacy training graduates in a manner that would allow NTM-A/CSTC-A to
more easily track literacy rates within the ANSF. Specifically, the reporting does not link the names and military
identification numbers of students listed on class rosters with course graduation rosters and their assigned
units’ personnel lists. As a result, NTM-A/CSTC-A is unable to track graduates after they leave literacy training
and join, or rejoin, their assigned units, or determine how many trained personnel remain in the ANSF. Without
mechanisms for reporting on and tracking ANSF personnel literacy training outcomes, the command cannot
determine the overall level of literacy in the ANSF.

Contracts Do Not Clearly State Requirements for Class Size or Length of Instruction
The literacy training contracts allow OTTS, Insight Group, or HEIK to bill NTM-A/CSTC-A for each “class” where
instruction was provided, rather than for the number of hours taught in each class. However, the contracts do
not clearly define class size or set the minimum standard of hours taught in each class. The lack of clarity
allowed one contractor to bill for multiple classes held at the same location and at the same time “when the
total student load fit within standards for a single class,” and for classes held for as little as 2 hours a month.
The contracts state that class size should be “+/- 33,”13 which NTM-A officials told us they interpret as the
maximum instructor to student ratio. In other words, each class is required to have one instructor for every 33
students. If a class has more than 33 students, the contractors are required to assign another instructor to the
class. However, the actual number of students in attendance for a class could be much less. The contracts
also state that OTTS, Insight Group, and HEIK literacy instructors shall work a 45-hour week, teaching students
6 hours a day, 5 days a week, for a total of 30 hours dedicated to literacy instruction. The contracts also call
for “literacy laboratory”—working with remedial students 5 hours each week. However, it appears that class
size is not linked to the number of required instructional hours. In other words, because the contractors are
allowed to bill by the number of classes taught, they could teach many small-size classes held for a few hours
per week. The lack of clear linkage of class size and number of hours taught means that U.S. government
funds used to support NTM-A/CSTC-A’s literacy programs are exposed to a risk of waste.
In commenting on a draft of this report, NTM-A stated that the command is responsible for ensuring all class
requests meet internal minimum class size and minimum hours of instruction per month prior to approving the
class request, and that the contractor cannot mandate or solicit attendance. While we agree that it is not the
responsibility of the contractor to mandate or solicit attendance, our point is that, because of poorly defined
contract requirements, U.S. government funds are being paid to contractors for teaching multiple, poorly-
attended classes held for a few hours per week. In fact, NTM-A officials told us in October 2013 that the
command was taking steps to eliminate these “nonproductive” classes. One of these efforts was to develop


12 Examples of data reported include the numbers of (1) classes conducted, (2) students, and (3) graduates—by level. The

contractors also report on the location of the training and students’ names.
13   The contacts specify “Class Size: +/- 33” or “Individual Class Size: +/- 33,” depending on the contract line item.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                     Page 8
new internal program requirements for approving classes, including a requirement that classes meet at least 8
hours each week. These new internal program requirements would be strengthened if they were included in
the contracts.
In addition, the contract line item for literacy training that OTTS, Insight Group, and HEIK most frequently billed
against did not specify the total number of instruction hours permitted per class. According to the FAR,
contracts may identify the items or services to be provided as separately identified line items.14 The three
literacy training contracts contain five contract line items for providing literacy instruction for Levels 1, 2, and
3. Four of these line items specified the maximum total number of instruction hours permitted for each literacy
class. For example, literacy classes billed for under the contract line item specifically for Level 1 training could
not exceed 64 hours, and extensive literacy training in Levels 1 through 3 could not exceed 312 hours when
billed under a separate contract line item. However, the fifth contract line item did not establish a maximum
total number of hours of instruction permitted for each class, thus allowing the contractors to bill for classes
under this line item indefinitely. We determined that the contractors billed most classes under this contract
line item. According to NTM-A/CSTC-A officials, the command is ending the use of this fifth contract line item.
NTM-A/CSTC-A officials recognized the financial risks of not having clearly defined requirements for classes
and length of instruction and began taking steps in July 2012 to change their processes for validating the need
for and approving requested classes. For example, NTM-A/CSTC-A’s program managers began calling ANSF
commanders at the identified site to confirm the need for the classes requested, determine the number of
classes to be provided, and determine the expected student enrollment.15 In addition, the current contracting
officer’s representative told us that during the course of our audit, the command developed standardized
criteria for approving new classes. The proposed classes must (1) enroll a minimum class size of 10 students,
(2) provide a minimum instruction of 8 hours per week, (3) start at least 6 calendar days prior to the end of the
month, and (4) be located at an existing training site. However, these requirements have not been documented
in a modification to the contracts. As such, their effectiveness remains largely anecdotal and may not provide
the necessary assurance that resources are not wasted on unnecessary literacy classes.

Contracts Lack Measurable Performance Standards
The three literacy contracts also lack measurable performance standards that link to NTM-A/CSTC-A’s program
goals. The FAR requires the use of “performance-based acquisition methods to the maximum extent
practicable.”16 Specifically, the FAR states that performance-based contracts for services shall include (1) a
performance work statement; (2) measurable performance standards (in terms of quality, timeliness, and
quantity, among other things) and the method of assessing contractor performance against those standards;
and (3) performance incentives where appropriate.17 It also requires agencies, to the maximum extent
practical, to describe the work in terms of the required results, rather than either “how” the work is to be
accomplished or the number of hours to be provided.18 U.S. Army regulations also require agencies to ensure
that contracts have provisions for managing and measuring performance.19


14   FAR 4.10.
15 According to NTM-A/CSTC-A's contracting officer’s representative for the literacy training contracts, requests for literacy

classes are submitted to the Literacy Branch by coalition force personnel working with the ANA or ANP or directly from ANA
or ANP units if they are not supported by the coalition force. However, the direct ANA and ANP requests are generally
submitted for them by senior literacy training contractor officials at the training sites. After review, the class requests are
approved or disapproved by the contracting officer’s representative. If the class is approved, NTM-A/CSTC-A officials send a
letter and a spreadsheet (of approved classes) to the applicable contractor.
16   FAR 37.102.
17   FAR 37.601.
18   FAR 37.602.
19 Specifically, Army Regulation 70-13 calls for the requiring activity—NTM-A/CSTC-A in this case—to translate needs into

actionable requirements for contract award that allow for proper management and measurement of outcomes throughout


SIGAR 14-30-AR/ANSF Literacy Training                                                                                   Page 9
The performance work statement for the literacy program does not include measurable performance
standards, such as a quantitative evaluation of literacy training’s effectiveness and outcomes. Our analysis of
the contracts showed that they only require the contractors to teach each student to read and write in either
Dari or Pashto and perform basic mathematics with no mention of the overall program goals or other targets.
Further, the performance work statements for the contracts list only four performance objectives: (1) hire
personnel qualified to teach Dari and/or Pashto, (2) provide all training aids and materials, (3) develop and
execute a comprehensive program of instruction, and (4) provide required hours of classroom instruction per
week. None of these performance objectives addresses training results or links to achievement of NTM-
A/CSTC-A’s broader program goals.
Partly in response to suspected deficiencies in its oversight of the contracts, NTM-A/CSTC-A created a crisis
action team in October 2012 to conduct an internal review of the literacy program. The command’s crisis
action team identified multiple deficiencies in the three literacy training contracts, including a lack of (1)
mechanisms to evaluate effectiveness of the contractors’ instruction and (2) contractor reporting requirements
that would enable the command to assess or track the levels of literacy in the ANSF. As a result of the internal
review, NTM-A/CSTC-A drafted a new literacy training contract, valued at $50.7 million, that would have
replaced the three ongoing contracts and include key changes to address the deficiencies noted. However, due
to time constraints, lack of planned independent oversight, and other factors, NTM-A/CSTC-A decided in July
2013 to forgo awarding the new contract and continued providing instruction under the ongoing contracts.

Security Challenges, Poor Class Attendance, and Attrition Affect NTM-A/CSTC-A’s Literacy Training
Program
Security pressures and the need to send recruits to the field more quickly have resulted in recruits not
completing the full 64 hours of instruction needed to achieve Level 1 literacy proficiency as part of their basic
training requirement. For example, from February to July 2013, the Ministry of Defense (MOD) decreased the
length of basic training program for ANA recruits from 9 weeks to 8 weeks and removed literacy training from
the official program of instruction.20 In addition, some ANP recruits have not received the required hours of
literacy instruction. According to Regional Support Command-Southwest officials, 45 percent of police
personnel recruited between July 2012 and February 2013 were sent directly to field checkpoints without
receiving any literacy training. As a result, additional resources have to be spent to provide untested and
untrained personnel with literacy training they should have completed in basic training.
Moreover, although NTM-A/CSTC-A provides literacy training in the field for ANA and ANP forces, attendance is
an ongoing problem within both forces. Based on inspections conducted by coalition forces, NTM-A/CSTC-A
estimated that overall attendance was around 50 percent since February 2011. According to NTM-A/CSTC-A
officials, a reason for this low attendance level is that some ANA commanders do not ensure that soldiers who
need literacy training are available to attend classes.
High levels of attrition in the ANSF pose another challenge for NTM-A/CSTC-A’s literacy training program. One
NTM-A/CSTC-A official told us that illiteracy remains a concern even in the ANSF’s junior officer ranks due to an
annual turnover of 30,000-40,000 personnel across the army and police. Other NTM-A/CSTC-A officials
estimated that the ANSF attrition rate is 30-50 percent annually. Therefore, despite NTM-A/CSTC-A reporting
that 224,826 ANSF personnel had passed at least Level 1 training as of October 2013, it is unlikely that all of



contract performance. The requiring activity is the entity that has a requirement for supplies or services and requests the
initiation of the acquisition. The requiring activity has personnel who are responsible for developing command resource
requirements, identifying sources of funding, determining costs, acquiring funds, distributing and controlling funds, and
tracking costs and obligations.
20 NTM-A/CSTC-A and ANA officials told us that literacy was still being emphasized and taught most days after other basic

training requirements were met. However, NTM-A/CSTC-A officials at the Kabul Military Training Center noted that only
roughly 80 percent of recruits received the required 64 hours needed to take the post test for literacy proficiency.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                Page 10
these personnel are still in the ANSF. As a result, it is difficult for the command to determine the impact of its
program on increasing the overall level of literacy in the ANSF.

NTM-A/CSTC-A Plans to Adjust Program Goals
When we briefed NTM-A/CSTC-A officials in October 2013 on the preliminary results of the audit, they
acknowledged that reporting “quantity” may not be the best measurement of success for the literacy training
program. They also stated they were planning to adjust the program goals to ensure that they are more
realistic. For example, NTM-A/CSTC-A officials proposed that one of the new goals will be to assist ANSF in
achieving 100,000 personnel trained to literacy Level 3 by 2014, rather than the current 50 percent goal.21

In addition, NTM-A/CSTC-A officials agreed that the lack of clearly defined requirements for ANSF literacy
classes may have resulted in wasted funds, and they have taken actions to correct the problem. Specifically,
the command is (1) ending the use of a “non-productive” contract line item (the fifth contract line item noted
above) that was used by the contractors to bill for the classes, and (2) either combining or suspending classes
with low attendance or training hours. According to NTM-A/CSTC-A officials, these actions have already saved
the command $1.07 million.


OVERSIGHT OF CONTRACTOR PERFORMANCE IS IMPROVING, BUT FUTURE
OVERSIGHT CAPABILITY MAY BE AT RISK

NTM-A/CSTC-A Initially Allowed the Literacy Training Program to Expand beyond Its
Oversight Capability, but Has Taken Steps to Improve Oversight
Multiple regulations and contract requirements govern NTM-A/CSTC-A’s oversight of the literacy training
contracts. Both the FAR and U.S. Army contracting regulations require contracting agencies to prepare quality
assurance surveillance plans and perform surveillance efforts in accordance with those plans.22 In addition,
the Army’s regulations require contracting officer’s representatives to perform inspection of services, reject
nonconforming services, and verify correction of deficiencies for contractor-delivered services.23
The quality assurance surveillance plans for the literacy contracts required NTM-A/CSTC-A to verify that the
literacy training contractors (1) hire personnel qualified to teach Dari and/or Pashto, (2) provide all training
aids and materials, (3) develop and execute a comprehensive program of instruction, (4) provide the required
hours of classroom instruction per week, and (5) require their instructors to work 45 hours per week, with 30
of those hours dedicated to literacy instruction. Further, the literacy training acquisition plan called for close
monitoring of literacy classes by coalition forces at the site to mitigate the risks24 resulting from instruction
occurring at a wide range of locations across the entire country of Afghanistan. The plan tasked NTM-A/CSTC-A
with either assigning a contracting officer’s representative to each location or developing alternative plans to
ensure site inspections occurred. However, no contracting officer’s representatives were assigned to the site
locations. The acquisition plan also noted that a fragmentary order25 had been drafted that would assign


21 Other proposed new goals pertain to NTMA-/CSTCA’s Train-the Trainer program and transitioning planning, which are
discussed later in this report.
22   FAR 46.401 and Army Regulation 70-13.
23   Army Regulation 70-13.
24Risks noted in the acquisition plan included lack of oversight, contractors’ failure to perform, and contractors’ uneven
workload.
25A fragmentary order is a military order used to send timely changes of existing orders to subordinate and supporting
commanders while providing notification to higher and other applicable commands.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                Page 11
coalition military observers to site locations to conduct inspections.26 Yet, SIGAR found that the International
Security Assistance Force never approved the draft order. Thus, no military observers were assigned to conduct
inspections of the literacy classes.
To ensure that site inspections occurred, NTM-A/CSTC-A contracted with EUREKA Research in December 2010
to conduct visits at 960 training locations twice each year and monitor literacy classes provided by OTTS,
Insight Group, and HEIK.27 In addition, NTM-A/CSTC-A formed a mobile team, made up of U.S. and coalition
military personnel, and tasked it with conducting site visits to monitor the contractors’ classes. However, the
command eliminated the mobile team in early 2012,28 leaving only EUREKA Research to monitor the
contractors’ work. By the fall of 2012, the number of training locations reached approximately 3,200, with
roughly 6,000 classes across Afghanistan—more than three times the number that EUREKA Research’s
contract required it to visit annually. As a result of the increase in the number of training locations, EUREKA’s
ability to effectively evaluate the literacy classes was effectively diminished.
NTM-A/CSTC-A has taken steps to improve its oversight of the literacy training classes. As a result of the
October 2012 internal program review, NTM-A/CSTC-A reduced the number of its literacy classes by keeping
only those classes that had at least five students (rather than the minimum two required under the contract)
and those where literacy students were graduating. By February 2013, NTM-A/CSTC-A had decreased the
number of classes to fewer than 5,000 and reduced the locations to fewer than 2,700 across Afghanistan. As
of August 2013, the command reported that it had further decreased the number of classes to 2,204 and
reduced the locations to 589—86 ANA locations and 503 ANP locations.29 NTM-A/CSTC-A also began
conducting random site visits on a monthly basis. Under a new fragmentary order issued by the International
Security Assistance Force in late 2012, personnel from the Regional Support Commands started visiting
literacy classes, primarily those conducted at training centers, within their areas of operations.


NTM-A/CSTC-A Awarded a New Quality Assurance Contract, but the Command’s
Oversight Capability Will Decrease as the Drawdown Continues
NTM-A/CSTC-A did not extend EUREKA Research’s contract when it ended in June 2013,30 and did not award a
new quality assurance contract until December 15, 2013. To conduct oversight during the 6-month gap,
command officials said they used feedback from site visits conducted by U.S. and coalition forces and
contractor data provided to contracting officer’s representatives.
However, our analysis of the performance work statement for the new quality assurance contract shows that
NTM-A/CSTC-A plans on requiring the contractor to perform only four tasks: (1) show proof of instructor
qualification, (2) provide an oversight assessments excel worksheet, (3) provide compliance oversight
assessment checklists, and (4) submit invoices. Similar to the quality assurance surveillance plan used by
EUREKA Research, the plan for the new quality assurance contract does not include any mechanism for NTM-
A/CSTC-A to conduct independent testing of student outcomes.
This potential oversight weakness will be exacerbated as the military drawdown continues through December
2014. Specifically, NTM-A/CSTC-A’s ability to oversee the literacy training contracts and the new quality


26   The acquisition plan did not indicate which organization drafted this order.
27 The performance work statement for EUREKA Research’s contract specified the number of training locations to be

visited each year, not the number of classes to be inspected. Multiple classes may occur at a training location.
28According to NTM-A/CSTC-A officials, neither the military forces nor EUREKA were resourced to provide the oversight
required at the literacy program’s highest point in terms of locations and classes.
29   A total of 48,531 soldiers and police were enrolled in these classes.
30Before June 2013, the command was considering a different approach to quality assurance that could have included
quantitative assessment of contractors’ performance.



SIGAR 14-30-AR/ANSF Literacy Training                                                                            Page 12
assurance contractor with U.S. or coalition force personnel will likely decrease as the number of these
personnel who are available to conduct this oversight also decreases. Thus, it is imperative that the new
quality assurance contract includes the elements necessary for ensuring that the contractors conduct classes
in accordance with the terms of the contracts.


NTM-A/CSTC-A HAS TAKEN STEPS TO TRANSFER AND SUSTAIN THE LITERACY
TRAINING PROGRAM, BUT LACKS A FORMAL STRATEGY FOR IMPLEMENTING
AGREEMENTS

MOD and MOI Have Been Slow to Implement Agreed upon Actions
When NTM-A/CSTC-A developed a strategy and plan for the literacy training program, the command stated that
its goal was to create a program that was “ultimately ANSF delivered, reflects the ANSF’s vision, meets ANSF
requirements for training, and is sustainable.” This strategy and plan set July 2013 as the target date for
transferring responsibility for literacy training in the field to the MOD and MOI. Once transferred, MOD and MOI
would manage the literacy training program, and the ANSF would implement it with support from
nongovernmental organizations, as appropriate. NTM-A/CSTC-A would maintain responsibility for training
conducted at the ANSF training centers through 2014, but would start to transfer training at these locations to
the Afghan government in mid-2014. In addition, MOD and MOI would expand basic recruit training to include
literacy training at Levels 1, 2, and 3 for illiterate recruits, and NTM-A/CSTC-A would implement a train-the-
trainer program—a program estimated to cost approximately $335,000 that began November 2013. However,
the strategy and plan were contingent upon gaining the ministries’ support and approval. Despite numerous
attempts, NTM-A/CSTC-A did not obtain immediate support for its strategy and plan. According to NTM-A/CSTC-
A officials, MOD and MOI cited reductions in the number of literacy classes and the quality of literacy
instructors as concerns preventing them from supporting NTM-A/CSTC-A’s plans for the literacy program.
MOD’s and MOI’s initial reluctance to sign agreements to increase the length of basic recruit training to allow
for literacy training through Level 3 for illiterate recruits also delayed the program’s transfer process. For
example, instead of implementing a plan proposed by NTM-A/CSTC-A in February 2013 that would have
extended ANA basic training to 20 weeks, up from the then 9-week training, to allow for literacy training
through Level 3, MOD temporarily reduced the length the ANA’s basic training to 8 weeks and eliminated
literacy training from the program of instruction. In May 2013, however, MOD, MOI, and the Ministry of
Education each signed a letter committing to NTM-A/CSTC-A’s plans for the literacy program. For example, the
MOD and MOI agreed to expand training for ANA and ANP recruits, respectively, to allow time for literacy
training through Level 3. MOD would provide 8 weeks of literacy training to those ANA recruits requiring such
skills, in addition to 8 weeks of basic training. Recruits already possessing basic literacy skills would proceed
directly to basic training. After basic training, roughly 20 percent of the recruits would attend one of several
ANSF branch schools for specialized training;31 the other roughly 80 percent would be assigned directly to
fielded units. MOI would also extend training for its ANP recruits from 10 to 16 weeks to allow for literacy
training. In addition, MOD and MOI agreed that their recruits graduating from the train-the-trainer program
would return to their units as literacy instructors.
Figure 2 shows the current and future literacy training plans for the ANA and ANP. The projected literacy
training timeline is shown in figure 3.




31 The ANA branch schools are designed to professionalize the force. They include such areas as combat support services,

signal, artillery, armor, and military police. Level 3 literacy is a requirement for attendance.



SIGAR 14-30-AR/ANSF Literacy Training                                                                            Page 13
Figure 2 - Current and Future Plans for Providing Literacy Training for the ANA and ANP




Source: NTM-A/CSTC-A.




SIGAR 14-30-AR/ANSF Literacy Training                                                     Page 14
Figure 3 - Projected Literacy Training Program Transition Timeline




Source: NTM-A/CSTC-A.

Although ANA officials added the literacy training requirement back into the official program of instruction for
recruits, NTM-A/CSTC-A officials noted that MOD has made limited discernible progress in implementing the
expanded 16-week basic training program. Similarly, NTM-A/CSTC-A officials also said there has been limited
progress made by the MOI in implementing its planned 16-week basic training program for ANP recruits.
Despite the challenges in obtaining MOD and MOI commitment to expanding literacy training during basic
training for the ANA and ANP, NTM-A/CSTC-A, MOD, MOI, the Ministry of Education, the United Nations
Educational, Scientific, and Cultural Organization, and Deutsche Gesellschaft fur International
Zusammenarbeit (GIZ)32 have made and continue to make substantial commitments to NTM-A/CSTC-A’s train-
the-trainer program. In fact, GIZ provided the curriculum for the program at no cost to NTM-A/CSCT-A. MOD and
MOI agreed to the curriculum and committed to sending 1,500 ANA and 1,000 ANP personnel to participate in
the program. These 2,500 personnel will receive training over the 13-month period from November 2013
through December 2014, and return to the field or training centers as literacy instructors for their respective
units. The United Nations Educational, Scientific, and Cultural Organization, which currently implements the
Literacy Empowerment for Afghan Police program, agreed to teach an additional 500 policemen to become
literacy instructors.33
In addition to providing the curriculum for NTM-A/CSTC-A’s train-the-trainer program, GIZ has made other
commitments to the ANSF literacy training program. In July 2013, the international community, through the
Law and Order Trust Fund for Afghanistan, approved GIZ to provide literacy training to ANP personnel in all 34
Afghan provinces.34 Subsequently, GIZ agreed to take over all of NTM-A/CSTC-A’s literacy classes for ANP

32 GIZ is a German nongovernmental organization that operates throughout Germany and in more than 130 countries,
including Afghanistan. GIZ primarily supports the German Federal Ministry for Economic Cooperation and Development and
other German ministries.
33 Literacy Empowerment for Afghan Police is a program funded by the government of Japan. The United Nations

Educational, Scientific, and Cultural Organization launched the program in June 2011 to provide literacy training to Afghan
national police and improve quality of policing in Afghanistan.
34The Law and Order Trust Fund for Afghanistan, a multilateral trust fund set up in 2002, provides a mechanism for
coordinating contributions from international partners in support of the Afghan police force. It is managed by the Afghan
government, through the Ministries of Interior and Finance. The largest contributors to LOFTA are the United States, the
European Union, and Japan. Other contributors are Australia, Belgium, Canada, Czech Republic, Denmark, Finland,
Hungary, Germany, Iceland, Ireland, Italy, Latvia, Netherlands, Norway, Switzerland, and the United Kingdom.



SIGAR 14-30-AR/ANSF Literacy Training                                                                               Page 15
personnel at fielded units at its own expense. NTM-A/CSTC-A will continue to maintain responsibility for literacy
classes conducted at ANSF training centers.35 GIZ first took responsibility for NTM-A/CSTC-A’s ANP literacy
classes in Parwan province. As of November 2013, GIZ had taken over a total of 410 classes. GIZ plans to
assume responsibility for NTM-A/CSTC-A’s remaining literacy classes for ANP personnel at fielded units in other
provinces in phases through 2014.
If GIZ provides the literacy training as planned, its contribution could lower the costs of the training NTM-
A/CSTC-A provides. The contracting officer representative for the literacy training contracts told us that GIZ’s
contribution could potentially reduce the command’s literacy training costs by $600,000 through the end of
2014. Further, it could allow the command to focus its limited resources on performing quality assurance
services at training centers, where most of the training conducted under the three literacy contracts will
occur.36


NTM-A/CSTC-A Has Not Developed a Coordinated Strategy for Transferring and
Sustaining the Literacy Program
A key to enhancing stakeholder collaboration and addressing longstanding problems is to develop and formally
implement an overarching strategy.37 Although NTM-A/CSTC-A, MOD, MOI, the United Nations Educational,
Scientific, and Cultural Organization, and GIZ have increased their coordination and agreed to actions for
transferring and sustaining the ANSF literacy training program, the command has not developed a new transfer
and sustainment strategy that defines stakeholder responsibilities and commitments, program goals,
milestones, metrics, or timelines. Further, although MOD and MOI have established timelines for fulfilling their
commitments to NTM-A/CSTC-A’s train-the-trainer program, neither ministry has established timelines for
implementing the expanded basic training to include Level 1 through Level 3 literacy training as agreed.
After a meeting in October 2013, NTM-A/CSTC-A officials gave us a draft of the command’s Joint Plan for
Implementing Literacy Programs. However, the draft plan addresses literacy training only for ANP personnel,
not ANA personnel. Without a coordinated strategy that defines program goals and milestones to focus and
guide stakeholders as well as their individual efforts, the potential for further delays exists if stakeholders do
not implement commitments as planned. This could result in a waste of funds and limit the overall
effectiveness of the training program, which, in turn, could have a negative impact on the successful transfer
of a sustainable literacy program to the Afghan government.


CONCLUSION

Although NTM-A/CSTC-A reported that it has made great progress in increasing the numbers of ANSF personnel
completing literacy training and that 224,826 ANSF personnel have passed Level 1 training (basic literacy
training equivalent to first-grade proficiency) and 73,700 have passed Level 3 training (functional literacy
equivalent to third-grade proficiency), it is unclear how these numbers support NTM-A/CSTC-A officials’
assertion that the literacy program has been successful. First, these numbers are not measured against the
current authorized end strength of 352,000 ANSF personnel. If measured against the current authorized end

35 According to NTM-A/CSTC-A officials, GIZ, which originally provided ANP literacy training only in Afghanistan’s northern

provinces, will not take over fielded literacy classes in Nuristan province because of security concerns.
36 NTM-A/CSTC-A Literacy Branch officials also told us that GIZ’s commitments will also provide continuity in the literacy

training and ease the economic impact on the local Afghan workforce. For example, when NTM-A/CSTC-A transferred the
ANP literacy classes in Parwan province to GIZ, the local literacy instructors, who were employed by OTTS, lost their jobs.
However, GIZ plans to hire most of them, about 80 percent, to continue as instructors in the organization’s literacy training
effort.
37 U.S. Government Accountability Office, Interagency Collaboration: Key Issues for Congressional Oversight of National

Security Strategies, Organizations, Workforce, and Information Sharing, GAO-09-904SP, September 25, 2009.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                Page 16
strength, the command’s reported numbers fall short of its stated goal of having 100 percent of ANSF
personnel achieve Level 1 literacy and at least 50 percent of the ANSF attain Level 3. Second, even if the
command has until December 31, 2014, (the date by which the command said it will meet its goal) to increase
its numbers, it has not fully addressed the lack of key elements needed to determine whether its goals were
met and the program was successful. For example, NTM-A/CSTC-A currently does not verify students’ language
proficiency, evaluate the effectiveness of instructions, monitor class size and length of instruction, or track
graduates after they complete training and join their assigned units. Furthermore, the high turnover and
attrition rate (about 30-50 percent annually according to some NTM-A/CSTC-A officials) makes it difficult to
determine how many ANSF personnel serving in the force have passed either Level 1 or Level 3 literacy
training. When implemented, NTM-A/CSTC-A’s plans to adjust the program goals to ensure they are realistic
could help the command better gauge its success.
In addition, even though NTM-A/CSTC-A has taken steps to improve its oversight of the literacy program (by
reducing the number of ongoing classes to ensure more site inspections and by hiring a new contractor to
conduct quality assurance), it still has difficulties providing appropriate contract oversight given the fact that
there will be fewer resources to do so as the military drawdown continues to take place.
Lastly, although international organizations have agreed to support literacy efforts after NTM-A/CSTC-A
transfers the literacy program to the Ministries of Defense and Interior, the command has not yet delineated
the stakeholders’ commitments into a formal, coordinated strategy that identifies each organization’s roles
and responsibilities or established milestones for implementing those commitments. Having such a strategy in
place early in the transfer process would help ensure that the literacy training program is successfully
transferred to the ANSF and is sustainable in the long term. Failure to do so could place ANSF’s ability to attain
the level of literacy required to be an effective force at risk, and, consequently, put U.S. funds at risk of waste.


RECOMMENDATIONS

To improve the usefulness of literacy training program reporting and measures of progress toward achieving
overall program goals, we recommend that the Commander of the International Security Assistance Force Joint
Command, in conjunction with the U.S. Central Command’s Joint Theater Support Contracting Command:

    1. Establish program goals that are reasonable given the timeframes involved and ensure that progress
       toward achieving these goals is measurable.
    2. Revise the acquisition approach to include requirements for
             a.   Independent verification of students' language capabilities upon literacy course completion
                  and
             b.   Contractor reporting that enables the MOD and MOI to track literacy levels within the ANSF.
To improve the oversight of the literacy training contracts, we recommend that the Commander of the
International Security Assistance Force Joint Command, in coordination with the U.S. Central Command’s Joint
Theater Support Contracting Command:
    3. Limit, to the extent practicable, the number of classes offered at training locations that cannot be
       inspected by coalition forces or other quality assurance personnel, such as a quality assurance
       contractor.
    4. Enhance oversight of the new quality assurance contractor’s performance by using coalition forces to
       conduct inspections at regional training centers and other locations.
    5. Modify the contracts to better define requirements for classes, including minimum class size and
       minimum number of hours taught in each class.


SIGAR 14-30-AR/ANSF Literacy Training                                                                        Page 17
To improve the likelihood of a successful transfer and sustainment of the literacy training program, we
recommend that the Commander of the International Security Assistance Force Joint Command, in
coordination with the Ministries of Defense, Interior, and Education; the United Nations Educational, Scientific,
and Cultural Organization; and GIZ:

    6. Develop and implement—by April 30, 2014—a formal transition and sustainment strategy for the
       literacy training program that
             a.   contains goals and milestones and metrics to measure program outcomes;

             b.   delineates the recent commitments and plans, such as the new train-the-trainer program,
                  among all parties; and
             c.   includes milestones for MOD and MOI to implement improvements needed to provide
                  required literacy training to ANSF recruits.


AGENCY COMMENTS
NTM-A, on behalf of the International Security Assistance Force Joint Command, provided written comments on
a draft of this report, which along with our responses, are reproduced in appendix III.

NTM-A concurred with our recommendations to establish reasonable program goals and ensure that progress
toward achieving those goals is measurable, revise the acquisition approach to include requirements for
independent verification of student’s language capabilities upon literacy course completion, limit the number
of classes offered at training locations that cannot be inspected by coalition forces or other quality assurance
personnel, and enhance oversight of the new quality assurance contractor’s performance by using coalition
forces to conduct inspections at regional training centers and other locations.

NTM-A did not, however, concur with our recommendation to modify the literacy contracts to better define
requirements for classes, including minimum class size and minimum number of hours taught per month. We
agree with NTM-A’s point regarding the number of hours taught per month and have revised our
recommendation to state that NTM-A should require the number of hours taught in each class. NTM-A stated
that the command is responsible for ensuring all class requests meet internal minimum class size and
minimum hours of instruction per month prior to approving the class request, and the contractor cannot
mandate or solicit attendance. While we recognize that the contractors cannot mandate or solicit student
attendance, we disagree that the modification is not required. The point of our recommendation was to ensure
that the contracts are written in such a way that mitigates the risk that U.S. government funds will be wasted
on payments to contractors for teaching multiple poorly-attended classes held for a few hours per week. In
fact, NTM-A officials told us in October 2013 that the command was taking steps to eliminate “nonproductive”
classes. One of these efforts, which the command implemented before that meeting, was to develop the
internal program requirements for approving classes, including a requirement that classes meet at least 8
hours each week. These new internal program requirements would be strengthened if they were included in
the contracts. As a result, we maintain that modifying contract requirements to correspond with the recently
developed internal program requirements would enhance the command’s oversight.

NTM-A partially concurred with our recommendation to revise the acquisition approach by requiring contractor
reporting that supports tracking literacy levels within the ANSF. NTM-A stated that the contractors are required
to report student progression to NTM-A, MOD, and MOI, but “it is not their duty to determine literacy levels or
rates within the ANSF.” That duty, NTM-A states, “falls squarely on the ANSF.” Although we agree that the
responsibility for determining literacy levels lies with the ANSF, we maintain that the contractors should provide
NTM-A, MOD, and MOI with reporting that enables them to track literacy levels. As we found, the contractors’
current reporting does not link the names and military identification numbers of students listed on class
rosters with course graduation rosters and their assigned units’ personnel lists, which would better enable the

SIGAR 14-30-AR/ANSF Literacy Training                                                                     Page 18
ministries to track students after they complete the training and join their assigned units. Our recommendation
did not state that the contractors should track literacy levels within the ANSF. Rather, we recommended that
the contractors’ reporting “support” this tracking effort. We have revised the recommendation to show more
clearly that it is the responsibility of the MOI and MOD to track literacy levels.

Lastly, NTM-A partially concurred with our recommendation to develop and implement, by January 31, 2014, a
formal transition and sustainment strategy for the literacy training program, to include milestones for MOD and
MOI to implement improvements needed to provide required literacy training to ANSF recruits. Although NTM-A
agreed that a formal transition and sustainment strategy is needed, the command stated that it would be more
reasonable to develop such a strategy after Afghanistan’s national elections. NTM-A stated that MOD and MOI
leadership is currently not focused on establishing a comprehensive transition plan, but that NTM-A will
continue to press the issue and advise the ANSF to take the lead in determining its future literacy
requirements. Given the timing of this audit report and Afghanistan’s national elections, we agree that more
time is needed for NTM-A to work with MOD and MOI to develop a transition and sustainment strategy.
Accordingly, we have revised the timeframe for developing it to April 30, 2014.

The U.S. Central Command Joint Theater Support Contracting Command also provided comments to the draft
of this report, which are reproduced in appendix IV. The command concurred with the five recommendations
directed to it, but stressed that it will take these actions as requested by NTM-A/CSTC-A.




SIGAR 14-30-AR/ANSF Literacy Training                                                                  Page 19
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of SIGAR’s audit of the Department of Defense’s contracts to provide literacy
training to Afghan National Security Forces (ANSF) personnel throughout Afghanistan. Our objectives were to
assess the extent to which (1) the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan’s (NTM-A/CSTC-A) literacy training was meeting goals for improving
literacy within the ANSF, (2) NTM-A/CSTC-A has provided effective contract oversight, and (3) NTM-A/CSTC-A
has taken steps to transfer and sustain the training program. We examined three literacy training contracts
awarded and administered by the Joint Theater Support Contracting Command’s General Support Contracting
Command in Afghanistan to OT Training Solutions (OTTS; W91B4M-10-D-4011), with the Higher Education
Institute of Karwan (HEIK; W91B4M-10-D-4010), and Insight Group (W91B4M-10-D-4009). We also conducted
a limited review of a fourth GSCC contract with EUREKA Research (W91B4M-11-C-0001) to provide quality
assurance for the three training contracts.
To assess the extent to which NTM-A/CSTC-A’s literacy training was meeting goals for improving literacy within
the ANSF, we analyzed NTM-A/CSTC-A’s ANSF Literacy Training – A Strategy For Transition and ANSF Literacy
Training Transition Framework for 2012, and the command’s internal review of the literacy program. We also
analyzed the Department of Defense’s July 2013 Report on Progress Toward Security and Stability in
Afghanistan. We reviewed relevant sections and clauses of the Federal Acquisition Regulation (FAR) 38 and U.S.
Army contracting regulations.39 We reviewed contracting officer’s representative monthly reports and EUREKA
Research quality assurance reports (to include results of the literacy training program, vetting processes for
instructors, and quality assurance plans). In addition, we analyzed Regional Support Command and coalition
force site inspection reports, which contained such information as reports on instructor attendance, training
aides, and teaching abilities. Although we did not use the results of our reviews of the contracting officer’s
representative’s quality assurance and site inspection reports to make projections, the analysis showed the
extent to which quality assurance oversight was conducted, documented, and reported. We also reviewed
various OTTS, HEIK, and Insight Group documents, including quality control plans, site inspection reports,
training instructor qualifications, and training results. We reviewed instructors’ lists provided to the Ministry of
Education. We conducted site visits to six ANSF locations:
          Kabul Military Training Center, Darulaman Literacy Center, and Afghan National Police Zone 101
           headquarters in Kabul
          Lashkar Gah Regional Training Center and Camp Shorabak Regional Military Training Center in
           Helmand province
          Camp Shaheen Regional Military Training Center in Balkh province
We considered several factors when choosing locations to visit: size, level of training provided, and relative
importance of the training location; balance of coverage between Afghan National Army (ANA) and Afghan
National Police (ANP) training locations; and security conditions and availability of agency assets to support the
visits. During each visit, we observed literacy training classes being conducted and classroom conditions, and
examined training schedules and class rosters, and met with ANSF, contractor, and coalition military personnel
at the location. In addition, we interviewed officials from NTM-A/CSTC-A’s Literacy Branch, the contracting
officer and contracting officer’s representative for the contracts. We also interviewed EUREKA Research quality
assurance officials, the contractors’ quality control representatives, site training managers, and instructors. We
also interviewed NTM-A/CSTC-A’s Deputy Commanders for Army and Police.
To assess the extent to which NTM-A/CSTC-A effectively oversaw the contracts, we analyzed the three literacy
training contracts provided to OTTS, HEIK, and Insight Group, associated task orders, and modifications. We
reviewed acquisition strategies and other documents developed during the contract planning pre-award phase

38   FAR 4.10, 16.5, Part 37, Subpart 46.4.
39   Army Regulation 70-13.



SIGAR 14-30-AR/ANSF Literacy Training                                                                       Page 20
of the current and proposed contracts, and examined relevant sections and clauses of the FAR and U.S. Army
contracting regulations on the management and oversight of service contracts.40 We also reviewed prior audits
of contract oversight and ANSF training, including the U.S. Government Accountability Office’s Framework for
Assessing the Acquisition Function at Federal Agencies.41 We reviewed NTM-A/CSTC-A’s processes for
approving new training classes and paying contractor invoices. In assessing the internal controls associated
with the contracts, we reviewed the contracting officer’s representative guidance for reviewing and approving
contractor invoices, and we reviewed available invoices.42 In addition, we obtained information on contract
obligations and expenditures from the Defense Finance and Accounting Services. We also interviewed officials
from NTM-A/CSTC-A’s Literacy Branch, the Deputy Commander-Army and Deputy Commander-Police, the Joint
Theater Support Contracting Command’s General Support Contracting Command’s contracting officer, officials
from the Regional Commands-Capital and North, and officials from the Regional Support Command-Southwest.
To assess the extent to which NTM-A/CSTC-A has taken steps to transfer and sustain the training program, we
analyzed NTM-A/CSTC-A’s ANSF Literacy Training – A Strategy For Transition and Literacy Training Transition
Framework for 2012, the Department of Defense’s July 2013 Report on Progress Toward Security and Stability
in Afghanistan, and other documents focusing on oversight and sustainment. In addition, we reviewed the
command’s internal reviews, reports, briefings, and documentation addressing status of and plans for the
literacy program. We also examined reports on NTM-A/CSTC-A’s train-the-trainer program and its agreements
with the Afghan Ministries of Defense and Interior. Further, we obtained documents describing these
ministries’ plans to extend the training program to include an additional 8 weeks of literacy instructions. We
interviewed officials from NTM-A/CSTC-A’s Literacy Branch and the Deputy Commanders for Army and Police
and the United Nations Educational, Scientific, and Cultural Organization. We also interviewed officials from the
Ministry of Education’s Literacy Center, the Ministry of Defense’s Religious and Cultural Affairs Office and ANA
Training Command, and the Ministry of Interior’s ANP Training General Command. We also met with ANA and
ANP training center commanders.
We did not use computer-processed data for the purposes of the audit objectives. With respect to assessing
internal controls, we reviewed NTM-A/CSTC-A’s and the Joint Theater Support Contracting Command’s General
Support Contracting Command’s compliance with the FAR and U.S. Army contracting regulations as part of our
first and second objectives. The results of our assessment are included in the body of this report.
We conducted work in Washington, D.C., and Kabul, Helmand, and Balkh provinces in Afghanistan from
November 2012 to January 2014, in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.
This audit was conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under
the authority of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as amended.




40   FAR 46.102 and Subpart 46.4; Army Regulation 70-13.
41U.S. Government Accountability Office, Interagency Collaboration: Key Issues for Congressional Oversight of National
Security Strategies, Organizations, Workforce, and Information Sharing, GAO-09-904SP, September 25, 2009; U.S.
Government Accountability Office, Framework for Assessing the Acquisition Function at Federal Agencies,GAO-05-218G,
September 1, 2005; and the Department of Defense Office of Inspector General, DoD Needs to Improve Vocational
Training Efforts to Develop the Afghan National Security Forces Infrastructure Maintenance Capabilities, DODIG-2012-104,
June 18, 2012.
42According to the contracting officer, much of the supporting documentation for the three literacy training contracts had
been sent from Afghanistan to the U.S. Army Contracting Command in Rock Island, Illinois, for storage. This documentation
was not available for our review during the course of our field work, nor was it available to support the contracting officer’s
assessments of contractor performance.



SIGAR 14-30-AR/ANSF Literacy Training                                                                                  Page 21
APPENDIX II - COMMITMENTS TO THE TRANSFER AND SUSTAINMENT OF THE
ANSF LITERACY TRAINING PROGRAM

Table 2 lists the stakeholders, their commitments to the Afghan National Security Force (ANSF) literacy training
program, and projected timeframes for implementing the commitments.

Table 2 - Stakeholder Commitments to ANSF in Literacy Training Transfer and Sustainment
     Stakeholder                                  Commitment                                     Timeframe of Efforts

                      • Continue classes being conducted under the three                  • Train-the-trainer program began in
North Atlantic Treaty
                        literacy training contracts at a reduced numbers of                 November 2013 for both ANA and
Organization Training   locations                                                           ANP
Mission-              • Award a new contract to add the train-the-trainer                 • ANA training to occur in the five
Afghanistan/Combined    capability                                                          Regional Military Training Centers
Security Transition                                                                         and Kabul Military Training Center
                            • Train 1,500 Afghan National Army (ANA) literacy               or Darulaman Literacy Center
Command-Afghanistan           instructors, at least one in each ANA company, and
                              for the five Regional Military Training Centers,            • ANP training to occur in the 12
(NTM-A/CSTC-A)                                                                              Regional Training Centers
                              Kabul Military Training Center, and Darulaman
                              Literacy Center                                             • All 2,500 instructors trained by
                            • Train 1,000 ANP literacy instructors                          December 31, 2014
                      • Award a new quality assurance contract for oversight of
                        the literacy training contracts

                           • Fund supplies and other support for its local train-the-     • Ongoing
Regional Support
                             trainer program
Command-South
                           • Provide a limited number of train-the-trainer graduates
                             in support of NTM-A/CSTC-A’s contracted train-the-
                             trainer program

                           • Provide and modify the train-the-trainer curriculum for      • Ongoing
Deutsche Gesellschaft
                             NTM-A/CSTC-A                                                 • Deutsche Gesellschaft für
für Internationale
                           • Expand the scope of literacy training beyond the current       Internationale Zusammenarbeit
Zusammenarbeit               nine provinces in northern Afghanistan                         began assuming responsibility for
                           • Assume responsibility from NTM-A/CSTC-A for various            most of NTM-A/CSTC-A’s literacy
                             literacy classes as NTM-A/CSTC-A reduces the scope of          classes for the Afghan National
                             its program                                                    Police (ANP) in July 2013.

                           • Train 500 ANP personnel to become literacy instructors       • Ongoing under the Literacy for
United Nations
                             at ANP fielded units and training centers                      Empowering Afghan Police program
Educational, Scientific,
and Cultural
Organization
                           • Provide 1,500 soldiers for NTM-A/CSTC-A’s train-the-         • All 1,500 ANA instructors trained by
Ministry of Defense
                             trainer program                                                December 31, 2014
                           • Extend initial recruit training to 16 weeks for illiterate
                             recruits, consisting of an 8-week basic training plus 8-
                             week literacy instruction at Levels 1 through 3

                           • Provide 1,500 policemen for NTM-A/CSTC-A’s train-the-        • All 1,500 ANP instructors trained by
Ministry of Interior
                              trainer program                                               December 31, 2014
                           • Extend initial recruit training to 16 weeks with Level 1
                              through 3 instruction included
                           • Implement literacy training for the Afghan Local Police




SIGAR 14-30-AR/ANSF Literacy Training                                                                                   Page 22
Table 2 - Stakeholder Commitments to ANSF in Literacy Training Transfer and Sustainment
    Stakeholder                               Commitment                               Timeframe of Efforts

                        • Evaluate and approve literacy training curriculum     • Ongoing
Ministry of Education
                        • Evaluate the effectiveness of the program after 6
                          months
                        • Update the train-the-trainer program of instruction
                        • Certify the results of ANSF literacy training

Source: SIGAR analysis of NTM-A/CSTC-A documents.




SIGAR 14-30-AR/ANSF Literacy Training                                                                    Page 23
APPENDIX III - COMMENTS FROM NATO TRAINING MISSION-AFGHANISTAN

                                                       HEADQUARTERS
                                            NATO TRAINING MISSION -AFGHANISTAN
                                                    KABUL, AFGI IANISTAN
                                                        APO. AE 09356



             FROM: NTM-A/CC

             TO: IJC/CC

             SUBJECT: Special Inspector General of Afghanistan Reconstruction (SIGAR) Dari/Pashto Literacy
             Training Report- December 2013


             BLUF: SIGAR issued a draft report regarding NTM-A CJ7 Dari/Pasbto literacy training with six
             recommendations. These six recommendations are intended to improve the usefulness of literacy
             training program reporting and measures of progress toward achieving overaU program goals. They
             also seek to strengthen the oversight of the three ongoing literacy training contracts and the new quality
             assurance contract. Lastly these recommendations intend to increase the likelihood of a successful
             transfer and sustainment of the literacy training program by developing and implementing a formal,
             coordinated transition and sustainment stralek'Y·

             I. Establish program goals that are reasonable given the timeframes involved and ensure that progress
             toward achieving these goals is measurable. CONCUR
             NTM-A has recently .issued new goals for the literacy program:

                  I. Train/graduate 30,000 ANSF members to level 3 within the next 12 months (end of2014). If
                     achieved. this program, since its inception in late 2009, will have trained/graduated over 100,000
                     ANSF members to level).
                  2. Train/graduate 2.500 ANSF members through the ''train-the-trainer.. program. This wiJI provide
                     the ANSF an organic capability to provide literacy instruction.
                  3. Final goal is to transition a ..turn-key" literacy program to the MoD/Mol at the end of201 4.

             A huge step in this last effort was to restructure the task orders to focus on more concrete deliverable
             CLINs (AA-Icvel 1 plan of instruction, AB-Icvel 2 plan of instruction. AC-Ievel 3 plan of instruction,
             AD-levels 1-3 plans of instruction, 1\H-recruit placement test) rather than the i\E CLIN (teach monthly)
             which was an avenue for waste as there was no deliverable other than to teach during the month.

             Additionally, this AE CLIN was paid each month. Now, classes via theM, AB, AC, and AD CU:Ns
             will be paid once their respective plans of instructions are taught/delivered.

             ANSF leadership holds a critical piece to ensure these goals are met, namely, to task/send their
             personnel to attend classes and ensure those they send arc not absent. NTM-A has had issues with
             absenteeism in the past. The new task orders and assessment reports from the oversight assistance
             contractor/monitors will better equip NTM-A to justify classes request approvals. deal with absenteeism
             and raise class fill rates.

             2. Revise the acquisition approach to include requirements for:

             a.   Independent verification of student' s language capabilities upon literacy cottrse completion.
                  CONCUR




SIGAR 14-30-AR/ANSF Literacy Training                                                                                     Page 24
                                                 See SIGAR
                                                 comment 1.




                                                     See SIGAR
                                                     comment 2.




                                        See SIGAR
                                        comment 3.




SIGAR 14-30-AR/ANSF Literacy Training                 Page 25
             A formal transition and sustainment strategy is needed but will not be completed before 31 January
             20 14.

             1\ more reasonable timeframe for these plans is after G IR.oA· s national elections. NTM-1\ will focus on
             task development/implementation by 30 April 2014. This effort must be /\NSF lead with NTM-A
             advising. Currently MoD and Mol senior leadership are not focused on establishing a comprehensive
             transition plan. Since they must determine future ANSF literacy requirements and will manage/execute
             any program their "buy-in" and participation is essential. NTM-A, via KLEs, will continue to press this
             ISSUe.



             iI7 . M yI PO~C~s~fo~r~t~hi~s~m~a~tt~e~rar~e~C~D~R~G~ujljaumc
              1111                                                         "Guido" Smitsmi~s~(NL
                                                                  and Maj Rhonda Simonis
                                                                                             :~D~)····




SIGAR 14-30-AR/ANSF Literacy Training                                                                                Page 26
                 SIGAR’s Response to Comments from NATO Training Mission-Afghanistan


1. Although we agree that the responsibility for determining literacy levels lies with the ANSF, we maintain
   that the contractors should provide NTM-A, MOD, and MOI with reporting that enables them to track
   literacy levels. As we found, the contractors’ current reporting does not link the names and military
   identification numbers of students listed on class rosters with course graduation rosters and their
   assigned units’ personnel lists, which would better enable the ministries to track students after they
   complete the training and join their assigned units. Our recommendation did not state that the contractors
   should track literacy levels within the ANSF. Rather, we recommended that the contractors’ reporting
   “support” this tracking effort. We have revised the recommendation to show more clearly that it is the
   responsibility of the MOI and MOD to track literacy levels.

2. NTM-A did not concur with our recommendation to modify the literacy contracts to better define
   requirements for classes, including minimum class size and minimum number of hours taught per month.
   We agree with NTM-A’s point regarding the number of hours taught per month and have revised our
   recommendation to state that NTM-A should require the number of hours taught in each class. NTM-A
   stated that the command is responsible for ensuring all class requests meet internal minimum class size
   and minimum hours of instruction per month prior to approving the class request, and the contractor
   cannot mandate or solicit attendance. While we recognize that the contractors cannot mandate or solicit
   student attendance, we disagree that the modification is not required. The point of our recommendation
   was to ensure that the contracts are written in such a way to mitigate the risk that U.S. government funds
   will be wasted on payments to contractors for teaching multiple poorly-attended classes held for a few
   hours per week. In fact, NTM-A officials told us in October 2013 that the command was taking steps to
   eliminate “nonproductive” classes. One of these efforts, which the command implemented before that
   meeting, was to develop the internal program requirements for approving classes, including a requirement
   that classes meet at least 8 hours each week. These new internal program requirements would be
   strengthened if they were included in the contracts. As a result, we maintain that modifying contract
   requirements to correspond with the recently developed internal program requirements would better
   enhance the command’s oversight.

3. Given the timing of this audit report and Afghanistan’s national elections, we agree that more time is
   needed for NTM-A to work with MOD and MOI to develop a transition and sustainment strategy.
   Accordingly, we have revised the timeframe for developing it to April 30, 2014.




SIGAR 14-30-AR/ANSF Literacy Training                                                                  Page 27
APPENDIX IV - COMMENTS FROM U.S. CENTRAL COMMAND JOINT THEATER
SUPPORT CONTRACTING COMMAND


                                                      HEADQUARTERS
                                       CENTCOM JOINT T111<ATER SUPPORT CONTRACTifolG COMMAND
                                                    CAMP PHOENIX, AFGHANISTAN
                                                             APOAE09320
                       arPLvro
                       AT'tlN11Q ~OF




            C-JTSCC/CG                                                                         15 January 2014


            MEMORANDUM THRU U.S. Central Command (CENTCOM), CCIG External Audits
            (Attn: Mr. Jim Smart), MacDill AFB, FL

            FOR Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR),
            1550 Crystal Drive, Suite 900 (Attn: Ms. Gabriele Tonsil), Arlington, VA 22202

            SUBJECT: Response to Draft SIGAR 14-XX Audit Report- "Afghan National Security
            Forces: Despite Reported Supoesses, Concerns Remain about Literacy Program
            Results, Contract Oversight, Transition, and Sustainment"


            1. C-JTSCC provides the following responses to the subject draft report:

               a. Recommendation (1 ). Establish program goals that are reasonable given the
            timeframes involved and ensure that progress toward achieving these goals is
            measurable.

                Response: Concur with comments. C-JTSCC will incorporate recommended
            changes as 1requested by NATO Training Mission- Afghanistan/Combined Security
            Transition Command - Afghanistan (NTM-NCSTC-A). NTM-NCSTC-A is responsible
            for e~tablishing program goals that are reasonable and in ensuring that progress toward
            achieving such goals is measurable.
                                              '
                b. Recommendation (2)a. Revise the acquisition approach to Include requirements
            tor independent verification qf students' language capabilities upon literacy course
            completion.

               Response: Concur with comments. C-JTSCC will revise the acquisition
            approach as requested by NTM-NCSTC-A. NTM-NCSTC-A is responsible for
            establishing requirements for independent verification of students' language capabilities
            upon literacy course completion.

                c. Recommendation (2)b. Revise the acquisition approach to include requirements
            for contractor reporting that supports tracking of literacy levels within the ANSF.

               Response: Concur with comments. C-JTSCC will work with NTM-NCSTC-A to
            ensure requirements identified in the contracts are accurate and reflect the current
            needs of the literacy program. NTM·NCSTC·A Is responsible for establishing program
            goals that are reasonable.

                d. Recommendation (3). Limit, to the extent practicable, the number of classes
            offered at training locations that cannot be inspected by Coalition Forces or other quality
            assurance personnel, such as a qualify assurance contractor.




SIGAR 14-30-AR/ANSF Literacy Training                                                                            Page 28
            CJTSCC-CG
            SUBJECT: Response to Draft SIGAR 14-XX Audit Report- "Afghan National Security
            Forces: Despite Reported Successes, Concerns Remain about Literacy Program
            Results, Contract Oversight, Transition, and Sustainmenf'


                Response: Concur with comments. C-JTSCC will implement in scope changes
            to the existing contracts as requested by NTM,AfCSTC-A. C·JTSCC is comrnitted to
            ensuring tha1 the government monitors contractor performance to ensure performance
            meets defined contract requirements. NTM-A!CSTC-A is responsible for defining class
            requirements- to include establishing the number of classes offered at training
            locations that cannot be inspected by Coalition Forces or other quality assurance
            personnel, such as a quality assurance contractor.

                e. Recommendation (4). Enhance oversight of the new quality assurance
            contractor's performance by using Coalition Forces to conduct inspections at regional
            training centers and other locations.

               Response: Concur wi1h comments. C-JTSCC will work with NTM-AICSTC-A to
            appoint CORs that are trained and qualified to perform the function. NTM-AICSTC-A is
            responsible for identifying individuals to perform Contracting Officer's Representative
            (COR) fu ncttons under the contract.        ·

               f. Recommendation (5). Modify the contracts to better define requirements for
            classes, including minimum class sizes and minimum number of hours taught per
            month.

                Response: Concur with comments. C-JTSCC will implement ln scope changes
            to existing contracts that are requested by NTM-AICSTC-A. NTM-NCSTC-A is
            responsible f or better defining requirements for classes, includin_g minimum class sizes
            and minimum number of hours taught per month.

                g. Recommendation (6). Develop and implement- by January 31, 2014- a formal
            transiUon and sustainment strategy for the literacy program that' a. contains goals and
            milestones and metrics to measure program outcomes; b. delineates the recent
            commHments and plans, such as the new train-the-trainer program, among all parties;
            and c. Includes milestones for MOD and MOl to implement improvements ne_eded to
            provide required literacy training to ANSF recruits.

                Response: No response provided. Recommendation directed to the Commander
            of the International Security Assistance Force Joint Command.

            2. My point of contact for this action is Ms. Peggy Corcoran, Audits and Oversight,




                                                       ~. 'L~
                                                       n  SIP               N
                                                         Brigadier Genera , USA
                                                         Cornmanding


                                                        2




SIGAR 14-30-AR/ANSF Literacy Training                                                                   Page 29
APPENDIX V - ACKNOWLEDGMENTS

Gabriele Tonsil, Senior Audit Manager
Clifton Spruill, Analyst-in-Charge
Vicki McClure, Senior Program Analyst
Donnalee Scharschmidt, Program Analyst


The following staff provided technical support:
Davi D’Agostino, Senior Advisor




SIGAR 14-30-AR/ANSF Literacy Training             Page 30
                                  This performance audit was conducted
                                     under project code SIGAR-072A.




SIGAR 14-30-AR/ANSF Literacy Training                                    Page 31
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
